3fu tlje

Snbtaita Supreme Court
Court of Appeals Case No.
19A-DR-03054

Phillip Scott Grigalanz,
Appellant(s),

Trial Court Case No.
64D01-1508-DR-6999

V.

FILED
Nov 19 2020, 4:04 pm

CLERK

Indiana Supreme Court
t Court of Appeals - >
and Tax Court ^

Kristi Lynn Grigalanz,
Appellee(s).

Order
This matter has come before the Indiana Supreme Court on a petition to transfer
jurisdiction, filed pursuant to Indiana Appellate Rules 56(B) and 57, following the issuance of a
decision by the Court of Appeals. The Court has reviewed the decision of the Court of Appeals,
and the submitted record on appeal, all briefs filed in the Court of Appeals, and all materials
filed in connection with the request to transfer jurisdiction have been made available to the
Court for review. Each participating member has had the opportunity to voice that Justice’s
views on the case in conference with the other Justices, and each participating member of the
Court has voted on the petition.
Being duly advised, the Court DENIES the petition to transfer.
Done at Indianapolis, Indiana, on 11/19/2020

Loretta H. Rush
Chief Justice of Indiana
All Justices concur.

IN THE
COURT OF APPEALS OF INDIANA
Phillip Scott Grigalanz,
Appellant,
Court of Appeals Cause No.
19A-DR-3054
FILED

v.

Kristi Lynn Grigalanz,
Appellee.

Sep 16 2020, 12:09 pm

CLERK

Indiana Supreme Court
k Court of Appeals a
and Tax Court Jr

Order
[1] Appellant, pro se, filed a Petition for Rehearing.
[2] Having reviewed the matter, the Court finds and orders as follows:
[3] Appellant’s Petition for Rehearing is denied.
[4] Ordered this 9/16/2020
[5] May, Robb, Vaidik, JJ., concur.

For the Court,

Chief Judge

Page 1 of 1

MEMORANDUM DECISION
Pursuant to Ind. Appellate Rule 65(D),
this Memorandum Decision shall not be
regarded as precedent or cited before any
court except for the purpose of establishing
the defense of res judicata, collateral
estoppel, or the law of the case.

f FILED
I Ju! 24 2020, 8:40 am

CLERK

Indiana Supreme Court i
k Court of Appeals M
and tax Court ^

Appellant Pro Se
Phillip Grigalanz
Hillsboro, Illinois

IN THE

COURT OF APPEALS OF INDIANA
Phillip Grigalanz,

July 24, 2020

Appellant-Respondent,

Court of Appeals Case No.
19A-DR-3054

y.

Kristi Grigalanz,
Appellee-Petitioner

Appeal from the Porter Superior
Court
The Honorable Roger V. Bradford,
Judge
Trial Court Cause No.
64D01-1508-DR-6999

May, Judge.
[i]

Phillip Grigalanz (“Husband”) appeals the trial court’s November 27, 2019,
order, which returned Husband’s filings to him without consideration because
the cause under which Husband filed the paperwork was closed. We affirm.

Court of Appeals of Indiana | Memorandum Decision 19A-DR-3054 | July 24, 2020

Page 1 of 5

Facts and Procedural History
[2]

On August 17, 2015, Kristi Grigalanz (“Wife”) petitioned the court for
dissolution of her marriage to Husband. A chronological case summary
notation dated November 19, 2015, states, “court receives letter/motion for
modification of custody from husband, court denies husband’s motion without
hearing.” (App. Vol II at 3) (capitalization removed). On May 10, 2016, the
court entered a summary decree of dissolution of marriage. Husband filed
various motions after the trial court entered the decree of dissolution, and the
trial court denied each of these motions.

[3]

Husband filed a notice of appeal on November 30, 2016, and this court
subsequently dismissed his appeal with prejudice. Even after his appeal was
dismissed, Husband continued to file documents with the trial court. A
chronological case summary notation dated April 6, 2017, states, “court
receives husband’s motion for ruling: Court of Appeals dismissed husband’s
appeal with prejudice. No further filings will be accepted.” (Id. at 8)
(capitalization removed). Husband continued to send documents to the trial
court. On November 27, 2019, the trial court issued an order, stating: “The
Court returns [Husband’s] filings to him without review as this Cause is
closed.” (Notice of Appeal at 5.)

Discussion and Decision

Court of Appeals of Indiana | Memorandum Decision 19A-DR-3054 | July 24, 2020

Page 2 of 5

[4]

Initially, we note Wife did not file an appellee’s brief. Therefore, we will not
develop arguments on her behalf and will reverse if Husband demonstrates
prima facie error. WindGateProperties, LLC v. Sanders, 93 N.E.3d 809, 813 (Ind.
Ct. App. 2018). “Prima facie, in this context/means at first sight, on first
appearance, or on the face of it.” Id. Nonetheless, we must still correctly apply
the law to the facts in the record to determine if reversal is required. Id.

[5]

Even though Husband proceeds on appeal prose, he is held to the same
standard as a trained attorney, including adherence to established rules of
procedure. See Tipton v. Estate ofHofmann, 118 N.E.3d 771, 776 (Ind. Ct. App.
2019). ‘“It is Appellant’s duty to present an adequate record clearly showing
the alleged error. Where he fails to do so, the issue is deemed waived.’”
Thompson v. State, 761 N.E.2d 467, 471 (Ind. Ct. App. 2002) (quoting Jackson v.
State, 496 N.E.2d 32, 33 (Ind. 1986)). An appellant’s appendix is meant to
present this court with copies of those parts of the record necessary for us to
decide the issues presented. Ind. Appellate Rule 50. An appellant’s appendix is
required to include several documents, including the appealed judgment or
order and any “pleadings and other documents from the Clerk’s Record in
chronological order that are necessary for resolution of the issues raised on
appeal.” Id.

[6]

In his brief, Husband argues the trial court abused its discretion by returning his
filings without review and deeming the case closed. Husband asserts he “has
filed various motions regarding [his] stepdaughter. Each of these motions were
[sic] denied without hearing. As such, issues surrounding [his] stepdaughter
Court of Appeals of Indiana | Memorandum Decision 19A-DR-3054 | July 24, 2020

Page 3 of 5

have never truly been adjudicated.” (Appellant’s Br. at 9.) Courts have an
interest in promoting finality and judicial economy by preventing re-litigation of
issues already decided. Northrop Corp. v. General Motors Corp., 807 N.E.2d 70, 86
(Ind. Ct. App. 2004), trans. denied. Husband’s statement of facts indicates he
had filed some of the motions pertaining to his stepdaughter before he filed a
“Petition to Transfer” on September 23, 2016. (Appellant’s Br. at 6.) To the
extent Husband is simply attempting to relitigate issues already decided, the
trial court is well within its discretion to reject such attempts and direct its
resources elsewhere. See Gorman v. Gorman, 871 N.E.2d 1019, 1023 (Ind. Ct.
App. 2007) (“By her conduct, [appellant] rejects the legal finality of both trial
and appellate court decisions. ... As a result, valuable judicial resources are
spent considering the same meritless legal and factual questions presented by
[appellant] over and over again.”), tram, denied.
[71

However, Husband’s appendix is so deficient that it is impossible for us to
conduct a meaningful review of his claims . His appendix consists solely of a
copy of the chronological case summary. He does not include a copy of the
decree of dissolution; copies of the documents he sent that prompted the
November 27, 2019, order; or any other documents from the trial court record.
Consequently, Husband has failed to prove the trial court committed any error.
See Wilhoitev. State, 7 N.E.3d 350, 355 (Ind. Ct. App. 2014) (holding defendant
failed to present a sufficient record to permit review of his claim that he was not
tried by a jury of his peers).

Court of Appeals of Indiana | Memorandum Decision 19A-DR-3054 1 July 24, 2020

Page 4 of 5

Conclusion
[8]

Husband failed to present a record on appeal that would permit us to address
his claims. Therefore, we affirm the trial court.

[9]

Affirmed.

Robb, J., and Vaidik, J., concur.

Court of Appeals of Indiana | Memorandum Decision 19A-DR-3054 | July 24, 2020

Page 5 of 5

STATE OF INDIANA

)

IN THE PORTER SUPERIOR

COUNTY OF PORTER

) SS:
)

SITTING AT VALPARAISO,

IN RE: THE MARRIAGE OF:
KRISTI EVANS,
Petitioner,
VS.

vIMGISTHati:

CAUSE NO. 64D01-1508-DR-6999

PHILLIP S. GRIGALANZ,
Respondent.
ORDER OF NOVEMBER 27, 2019
1. The Court returns Respondent’s filings to him without review as this Cause is
closed.
2. All prior and non-conflicting orders remain in full force and effect.
SO ORDERED THIS 27th DAY OF NOVEMBER, 2019.
A
Mary A. DeBoer, Magistrate
PORTER SUPERIOR COURT
Distribution:
Attorney Joseph Cioe (Petitioner)
^Phillip Grigalanz: Y-26282, 12078 IL SR 185, Hillsboro, IL 62049.

^ SflBW
°* COURT

